OIG Audit Report GR-30-06-006

Use of Equitable Sharing Assets by the Baltimore County, Maryland Police Department

Audit Report GR-30-06-006


June 2006
Office of the Inspector General


Executive Summary





The Comprehensive Crime Control Act of 1984 granted the U.S. Attorney General the authority to share federally forfeited assets with cooperating local law enforcement agencies.  The purpose of the Department of Justices (DOJ) Forfeiture Program is to deter crime by depriving criminals the profits and proceeds of illegal activities, and enhance cooperation among federal, state, and local law enforcement agencies.

State and local law enforcement agencies receive equitable sharing assets by participating directly with DOJ law enforcement components in joint investigations that lead to the seizure or forfeiture of cash and property.  To be eligible to receive equitable sharing proceeds, law enforcement agencies must submit a sharing request within 60 days of an asset seizure.  The amount of seized assets the USMS shares with agencies is generally calculated as a percentage of agency time spent participating in the investigation leading to asset forfeiture. 

The purpose of this audit was to assess whether equitable sharing assets received by the Baltimore County Police Department (BCPD) were accounted for properly and used for allowable purposes as defined by the applicable regulations and guidelines.  Our audit found that equitable sharing funds enabled the BCPD to expand the use and mobility of its air and marine units, enhance its forensics laboratory operations, and provide additional communication capability via additional mobile telephones and computer equipment upgrades.  However, the BCPD could not provide adequate supporting documentation for expenditures totaling $100,173.  In addition, we found unallowable equitable sharing expenditures totaling $302,685 as described below:


The BCPD remitted $111,988 to the States Attorneys Office of Baltimore County (SAO).  To determine if the SAO could receive equitable sharing funds, we contacted the Criminal Division and inquired if the SAO submitted an approved Federal Sharing Agreement.  At the time of our audit, the Criminal Division had no Federal Sharing Agreement on file for the SAO.  Since the SAO did not have a Federal Sharing Agreement with the Criminal Division, the SAO should not have received or spent DOJ equitable sharing funds.  

The BCPD purchased computer equipment with equitable sharing funds.  The BCPDs records indicated that the BCPD took delivery of the equipment in October 2004; however, over 7 months after delivery, we found computers costing $124,908 in storage at a BCPD facility.

The BCPD overpaid the Baltimore County Vehicle Operations and Maintenance Division (VOM) $62,848 to have its vehicles refurbished.  We found that although the VOMs costs to refurbish the vehicles totaled $27,152, the BCPD paid $90,000 for the service.  In addition, the BCPD paid the VOM a surcharge of $2,941 to mitigate the VOMs projected operating loss.
We developed 11 recommendations to help the Criminal Division monitor the BCPDs use of equitable sharing funds.  In addition to remedying the $402,858 in questioned costs, the Criminal Division should also require the BCPD to strengthen its procedures over the receipt and deposit of equitable sharing funds, and implement a policy of not projecting equitable sharing receipts for budget purposes.1



Footnotes

Questioned Costs are expenditures that do not comply with legal, regulatory, or contractual requirements, or are not supported by adequate documentation at the time of the audit, or are unnecessary or unreasonable.  Questioned costs may be remedied by offset, waiver, recovery of funds, or the provision of supporting documentation.